                           U.S. Department of Agriculture

                              Office of Inspector General
                                          Midwest Region




               Audit Report

  Animal and Plant Health Inspection Service’s
Control Over the Bovine Tuberculosis Eradication
                    Program




                               Report No. 50601-0009-Ch
                                        September 2006
Executive Summary
APHIS’ Control over the Bovine Tuberculosis Eradication Program
Audit Report No. 50601-0009-Ch

Results in Brief    The Animal and Plant Health Inspection Service (APHIS) is responsible for
                    the Bovine Tuberculosis Eradication Program (BTEP). The BTEP was
                    established in 1917 to eliminate bovine tuberculosis (TB) in the United States
                    (U.S.). The objective of our audit was to evaluate APHIS’ controls to ensure
                    that TB surveillance was adequate to timely detect TB outbreaks for
                    eradication. We concluded that while APHIS has made improvements in
                    recent years, weaknesses with the program’s oversight and controls make it
                    difficult for APHIS to timely detect and eradicate the disease.

                    In recent years APHIS has initiated efforts to improve the BTEP, particularly
                    in response to a TB Declaration of Emergency issued by the Secretary of
                    Agriculture in October 2000. In response to the emergency APHIS initiated
                    actions to address weaknesses in TB detection at slaughter facilities, wildlife
                    infecting cattle with TB in Michigan, and TB problems in herds along the
                    Mexico border in the El Paso, Texas area. APHIS has also continued to work
                    with its counterparts in Mexico to address their TB problem, and made some
                    rule changes intended to improve our domestic program. Although we
                    determined that there are weaknesses with the BTEP, the program has
                    sufficiently operated in that no widespread outbreaks have occurred, and the
                    incidence of known TB in the country is low (less than one percent) in
                    relation to the domestic cattle population as a whole. However, because TB is
                    contagious to most mammals, and there is no vaccination or cure for animals,
                    it requires immediate attention when detected.

                    We determined that in order for APHIS to get closer to realizing its goal of
                    eradicating TB the following areas need improvement: program oversight,
                    the status classification system and TB surveillance.

                    Program Oversight

                    APHIS’ was not using its oversight tools timely or effectively. The reporting
                    tools we reviewed consisted of State annual and monthly reports which
                    contain valuable information on the status of TB activities in each State, and
                    on-site program reviews. Our review of fiscal year (FY) 2004 annual reports
                    noted that the reports were not submitted, reviewed or approved in a timely
                    manner. We found that the monthly reports were not being reviewed by the
                    national or regional offices. In addition, program reviews were not being
                    consistently used as an oversight tool, as 16 of 23 States in APHIS’ western
                    region had not had a program review since 1999.



USDA/OIG-A/50601-0009-Ch                                                                    Page i
                                    Prior to the latest outbreak of TB in Minnesota, the State’s annual and
                                    monthly reports indicated weaknesses with slaughter surveillance and
                                    on-farm testing results. However, since APHIS was not extensively using
                                    these reports, it may have missed an opportunity to detect the disease earlier.
                                    This outbreak has found 5 affected herds and led to testing at over 100 farms
                                    in 8 States.

                                    Status Classification System

                                    In managing the BTEP, APHIS employs a status system to classify each State
                                    according to its TB prevalence level. This system is important because it
                                    dictates the extent of Federal testing and movement controls for cattle in each
                                    State or zone. APHIS has also worked with Mexico to establish the same
                                    status system controls for cattle imported into the United States. Status is
                                    based on the number of affected cattle herds assessed to a specific State or
                                    zone.

                                    We determined that APHIS’ status system did not provide an accurate
                                    representation of TB in the United States because it did not capture most TB
                                    cases. APHIS’ key TB detection activity is surveillance conducted at
                                    slaughter facilities. Over the last 5 years 272 TB cases were detected by
                                    slaughter surveillance, but 260 (or 96 percent) of these cases were not
                                    reflected by the status system. In a related audit we reported how nearly
                                    500 TB cases (over an 8-year period) in the wildlife of 1 State were omitted
                                    from the status system. 1 These cases were not included because the status
                                    system is based only on affected cattle herds, and in practice, APHIS requires
                                    that an additional infected animal be found at the source herd before it will be
                                    considered affected. This practice differs from what Federal regulations and
                                    APHIS’ operating procedures define as necessary to declare a herd affected,
                                    and in some instances led to the exclusion of herds with strong evidence of
                                    TB. For example, four separate TB cases were traced back to one herd, but
                                    because testing did not find a current infected animal at the premises, the
                                    herd was not declared affected.

                                   We also determined that APHIS’ could have taken more prompt action to
                                   reduce Minnesota’s status in response to that FY 2005 TB outbreak. APHIS
                                   delayed reducing Minnesota’s status for four months after criteria in Federal
                                   regulations was met in order to allow the investigation to finish. This also
                                   delayed the implementation of testing and movement requirements. As a
                                   result, some States put their own criteria into effect, while one other State
                                   continued to receive cattle from Minnesota. After additional cases of TB were
                                   found in December 2005, APHIS reduced Minnesota’s status.



1
  National Cooperative State-Federal Tuberculosis Eradication Program in Michigan, Audit No. 33099-0005-Ch. APHIS is already working to address
this condition.

USDA/OIG-A/50601-0009-Ch                                                                                                                 Page ii
                   Between FY’s 2001 and 2005, 75 percent of the TB-infected cattle detected
                   by slaughter surveillance originated in Mexico. These infected animals were
                   identified in 12 different States. Our analysis of FY 2004 TB cases found that
                   animals of Mexican origin spent up to 14 months at U.S. farms before going
                   to slaughter, with each case potentially spreading the disease. APHIS has
                   worked with Mexico to improve its TB eradication program; however
                   APHIS’ efforts are undermined by the disease’s 3 to 12 month incubation
                   period. Cattle may test negative for the disease prior to export, and develop
                   the disease after crossing the border. APHIS has not developed controls to
                   restrict the movement of cattle, or required additional testing to compensate
                   for the incubation period.

                   TB Surveillance

                   There are three main phases to APHIS’ key surveillance system: disease
                   detection at slaughter facilities, an epidemiologic investigation of detected TB
                   cases, and the eradication process when an investigation finds the source of
                   the disease. Since the Secretary’s TB Emergency Declaration in
                   October 2000, APHIS and the Food Safety and Inspection Service (FSIS)
                   have collaborated to significantly improve detection of TB at slaughter.
                   However, significant improvements are still needed to the investigation
                   phase, as APHIS struggles to timely and successfully investigate TB cases.

                   As noted above, significant improvements have occurred in the detection of
                   TB at slaughter facilities across the country. However, FSIS interprets the
                   standard number of tissue samples needed under an agreement with APHIS to
                   be applied as a national average, and not at each slaughter facility. Under this
                   interpretation, the standard was met on a national basis in both FY’s 2004 and
                   2005 even though 21 and 5 of the top 40 slaughter facilities, respectively, did
                   not meet the standard. The standard was met nationally because some
                   facilities submitted more than the standard amount, while others submitted
                   less. For example, in FY 2005 one facility submitted no tissue samples for TB
                   testing while another submitted almost 16 times the required number.

                   APHIS’ investigations of FY 2004 TB cases were neither timely nor effective
                   at finding TB for eradication. We reviewed all 36 FY 2004 TB investigations
                   and determined that 33 were not timely and not a single case resulted in the
                   identification of an affected domestic herd. There have been only
                   12 successful investigations (out of 272 cases) in the last 5 years. APHIS’
                   FY 2004 investigations took an average of 300 days to complete, far more
                   than the standard of 90 days which APHIS’ established in January 2005.
                   When investigations did lead to questionable but not infected herds, these
                   herds were not routinely added to high-risk herd listings for subsequent
                   testing. As a result, the majority of TB cases did not lead to eradication,
                   additional testing or other controls.

USDA/OIG-A/50601-0009-Ch                                                                   Page iii
                   We determined that the TB investigations were hampered by the lack of
                   information, mainly identification for a particular animal, but also
                   documentation kept by owners, dealers or brokers. APHIS anticipates the
                   implementation of an animal identification system in 2009. In addition
                   APHIS implemented new requirements to improve other aspects of the
                   investigation process, but it did not follow-up with training or other
                   assessments to ensure that the new requirements effectively addressed
                   targeted weaknesses. The timely success of these investigations is critical to
                   eradicating the disease.

                   While APHIS has made improvements in recent years, weaknesses with the
                   program’s oversight and controls make it difficult for APHIS to timely detect
                   and eradicate the disease.

Recommendations
In Brief           We recommend that APHIS perform a risk assessment using existing
                   management reports to determine where its highest risks are located, and
                   work to minimize those risks. Oversight can also be improved by more timely
                   and effective use of management reports and periodic reviews of local
                   program operations. We also recommend changes to two key control
                   functions of the BTEP, the status classification system and the slaughter
                   surveillance system. Adjustments are also needed to cattle import controls for
                   Mexico. APHIS and FSIS can further solidify recent improvements to detect
                   TB with a change to their existing agreement. Although an animal
                   identification system is expected to enhance disease investigations, it is not
                   forecasted to be in place until 2009. Therefore, we recommend better use of
                   high-risk herd provisions, additional oversight of TB investigations, and that
                   APHIS assess if new regulations and operating procedures were effective, or
                   determine if further improvements are needed.

Agency Response    In their response dated September 28, 2006, APHIS and FSIS officials agreed
                   with our recommendations. We have incorporated applicable portions of their
                   response, along with our position in the Findings and Recommendations
                   section of the report. The response is incorporated in its entirety as exhibit G
                   of the report.

OIG Position       We agree with APHIS’ and FSIS’ proposed actions and have reached
                   management decision for all recommendations.




USDA/OIG-A/50601-0009-Ch                                                                   Page iv
Abbreviations Used in This Report


APHIS          Animal and Plant Health Inspection Service
BTEP           Bovine Tuberculosis Eradication Program
CFR            Code of Federal Regulations
FSIS           Food Safety and Inspection Service
FY             Fiscal Year
MOU            Memorandum of Understanding
NAIS           National Animal Identification System
OCFO           Office of the Chief Financial Officer
OIG            Office of Inspector General
TB             Bovine Tuberculosis
UM&R           Uniform Methods and Rules - Bovine Tuberculosis Eradication
U.S.           United States
USDA           United States Department of Agriculture
VS             APHIS’ Veterinary Services




USDA/OIG-A/50601-0009-Ch                                                     Page v
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ....................................................................................................... v

Background and Objective .................................................................................................................... 1

Findings and Recommendations............................................................................................................ 5

    Section 1: Control and Oversight of the BTEP .............................................................................. 5

        Finding 1             Areas APHIS Can Improve Its Oversight of the BTEP .......................................... 6
                                  Recommendation 1 .......................................................................................... 9
                                  Recommendation 2 ........................................................................................ 10
                                  Recommendation 3 ........................................................................................ 10
        Finding 2             APHIS Needs to Improve Its TB Status Classification System ............................ 11
                                  Recommendation 4 ........................................................................................ 15
                                  Recommendation 5 ........................................................................................ 15
                                  Recommendation 6 ........................................................................................ 16
        Finding 3             Controls Were Not Implemented Timely in Response to an Outbreak................. 16
                                  Recommendation 7 ........................................................................................ 18

    Section 2: TB in Mexico Hampers Eradication Efforts............................................................... 19

        Finding 4             Controls Over Cattle from Mexico Need to be Improved..................................... 19
                                 Recommendation 8 ........................................................................................ 21

    Section 3: Detection, Investigation and Eradication of Bovine TB ............................................ 22

        Finding 5             Detection Has Been Significantly Improved but More Work Is Needed.............. 22
                                  Recommendation 9 ........................................................................................ 24
        Finding 6             BTEP Investigations Were Not Timely or Effective............................................. 25
                                  Recommendation 10 ...................................................................................... 29
                                  Recommendation 11 ...................................................................................... 30

Scope and Methodology........................................................................................................................ 31

Exhibit A – All Herds Declared “Affected” With TB........................................................................ 33

Exhibit B – TB Cases Identified By Slaughter Surveillance ............................................................. 34

Exhibit C – TB Slaughter Cases Traced to Mexican Origin............................................................. 35

Exhibit D – USDA Status Classification of Mexican States and Zones ........................................... 36
USDA/OIG-A/50601-0009-Ch                                                                                                                 Page vi
Exhibit E – Elapsed Days for FY 2004 Investigations of TB-Infected Cattle.................................. 37

Exhibit F – Reasons for Closing FY 2004 Investigations as Untraceable........................................ 38

Exhibit G – Agency Response to the Draft Report ............................................................................ 39




USDA/OIG-A/50601-0009-Ch                                                                                             Page vii
Background and Objective
Background                           Bovine Tuberculosis (TB) caused more deaths among farm animals in the
                                     United States (U.S.) in the early 20th century than all other infectious
                                     diseases combined. Bovine TB is contagious to most mammals, including
                                     humans. Whereas the disease is treatable in humans, there is no treatment for
                                     animals. The transmission of bovine TB 2 from animal to human is unlikely
                                     because adequate cooking of meat and pasteurizing milk kills the TB
                                     bacteria. The disease can spread between animals through the air or
                                     consumption of contaminated water, feed, or milk. The most effective means
                                     of controlling the disease is by destroying infected or exposed animals.

                                     Begun in 1917, the Bovine Tuberculosis Eradication Program (BTEP) has
                                     sought to eliminate the disease. In October 2000, when USDA’s Animal and
                                     Plant Health Inspection Service (APHIS) discovered warning signs that the
                                     disease might spread through the animal population again, the Secretary of
                                     Agriculture signed a Declaration of Emergency which authorized $44 million
                                     for a multi-year effort to expand the BTEP. In each of the last few fiscal
                                     years (2004-2006), APHIS allocated $14 to $15 million for the BTEP.

                                     APHIS administers the Cooperative State/Federal BTEP through 2 regional
                                     offices and 41 area offices, which work cooperatively with the 50 States,
                                     Washington D.C., Puerto Rico and the Virgin Islands. States must follow
                                     both APHIS’ operating procedures and Federal regulations. 3 Regulations
                                     note that a State must have the legal and financial resources to implement and
                                     enforce a TB eradication program, and that a State or zone must maintain
                                     clinical and epidemiologic surveillance of animal species at risk of TB.

                                     For the first time since January 1999, APHIS updated its operating
                                     procedures, the Uniform Methods and Rules (UM&R) in January 2005
                                     (herein referred to as operating procedures). This update incorporated
                                     changes to the program including: (1) New performance measures for
                                     slaughter and on-farm TB surveillance, (2) Establishment of timeframes for
                                     epidemiologic investigations, which search for the source of the detected
                                     disease, and (3) Incremental increases to the length of time dealers/brokers
                                     need to retain animal records (from 2 to 5 years) progressively through 2008.

                                     Slaughter Surveillance

                                     APHIS detects TB primarily through inspections at slaughter facilities
                                     conducted by USDA’s Food Safety and Inspection Service (FSIS). APHIS
                                     focuses its attention on the carcass inspections and surveillance rates at the

2
  Additional forms of tuberculosis exist, including avian and human tuberculosis. However, this report solely discusses Mycobacterium bovis (bovine
tuberculosis) and will use “TB” to mean bovine tuberculosis throughout the report.
3
  Bovine Tuberculosis Eradication, Uniform Methods and Rules (UM&R) (January 2005) and Title 9, Code of Federal Regulations (CFR), Part 77.

USDA/OIG-A/50601-0009-Ch                                                                                                                      Page 1
                                    largest 40 slaughter facilities because these facilities account for over
                                    90 percent of the cattle slaughtered in the United States. Slaughter inspections
                                    are performed according to a memorandum of understanding between APHIS
                                    and FSIS. Under the terms of this agreement, FSIS inspectors (or the State
                                    meat inspectors whom they oversee) will examine carcasses for suspicious
                                    lesions and collect 1 lesion per 2,000 adult cattle slaughtered. The inspectors
                                    will then submit the suspect lesions to the National Veterinary Services
                                    Laboratory or to other APHIS-approved laboratories for testing. The carcass
                                    is retained at the slaughter facility until the lab results are received. When a
                                    sample is found TB-positive, FSIS condemns the carcass if the lesions are
                                    generalized, but may condemn only a portion of the carcass if the lesions are
                                    localized. Unaffected portions of the carcass may be released for cooking.
                                    The laboratory forwards the test results to the appropriate APHIS area office
                                    for further investigation.

                                    On-Farm TB Testing

                                    APHIS supplements the slaughter surveillance discussed above with TB
                                    testing on farms. The most common reasons for on-farm testing are as
                                    follows: (1) Epidemiologic investigations of infected animals found at
                                    slaughter; (2) Area testing in zones with low TB classifications; (3) Interstate
                                    movement testing requirements (for States/zones with TB problems);
                                    (4) Annual testing for accredited herds; 4 and (5) Testing of high-risk herds.

                                    The caudal fold test is the primary on-farm test. Responder animals are
                                    subjected to secondary tests, unless they are sent directly to slaughter. 5
                                    APHIS published performance standards in its 2005 rules that chart expected
                                    test results. These results are predicated on the assumption that 1 percent of
                                    non-affected cattle will falsely test positive for the disease.6 Animals that test
                                    positive upon secondary testing are slaughtered for post-mortem testing with
                                    tissue samples submitted for laboratory examination.

                                    Epidemiologic Investigations

                                    When an APHIS area office receives positive test results from a laboratory
                                    they will work with the infected animal’s State veterinarian organization to
                                    conduct an epidemiologic investigation. 7 APHIS’ investigations attempt to
                                    locate and test the herd(s) that the infected animal belonged to or that it may
                                    have exposed to the disease. Veterinarians use identification tags
                                    (if available), dealer and broker records, and discussions with herd owners to
                                    identify the source of the infection. The herd(s) of origin or potential source
                                    herds are required to be quarantined and tested. 8 If the herd of origin or
4
  An accredited herd has successfully passed two consecutive TB tests in a 9 to 15 month period, and annual/biennial herd testing in subsequent years.
5
  Responder animals have had a positive reaction to a TB test. For APHIS’ technical definition see UM&R Part I “Definitions,” (January 2005).
6
  For APHIS’ Performance Standards for Caudal Fold Tuberculin Testing, see UM&R Appendix C (January 2005).
7
  The procedures for performing tracebacks are outlined in VS Memorandum No. 552.2, Part V.D.
8
  UM&R Part I (January 2005) states a herd of origin may be the herd of birth or where the animal resided for a minimum of 4 months prior to movement.

USDA/OIG-A/50601-0009-Ch                                                                                                                     Page 2
                                     infected herd is not found, APHIS requires that all consignors to that
                                     particular lot are to be added to the high-risk herd list for subsequent testing. 9

                                     Beginning in January 2005, APHIS requires that all investigations be
                                     completed within 90 days of initiation. APHIS area offices report the results
                                     of their investigations to their regional office, which is responsible for
                                     verifying all actions taken and then closing the case. If TB is confirmed in a
                                     herd through on-farm testing and subsequent laboratory analysis, APHIS
                                     declares the herd “affected” 10 and initiates eradication procedures.

                                     Eradication

                                     APHIS’ goal is to eradicate the disease. When a herd has been determined to
                                     be affected, APHIS recommends depopulating (i.e., destroying) the entire
                                     herd. If the owner elects not to depopulate the herd, the herd shall remain
                                     under quarantine until all the requirements of an individual herd (test and
                                     remove) plan have been completed. 11 APHIS also recommends that all cattle
                                     sold from known affected herds be depopulated. If not depopulated, these
                                     animals must remain under quarantine and be retested under the rules for
                                     high-risk herds. 12

                                     TB Status Classification System

                                     APHIS has established a hierarchy of TB statuses for States and zones, based
                                     on the number (or percentage) of affected herds found in that area. 13 A
                                     State’s status determines the TB testing requirements that must be met before
                                     animals can be moved out of the affected area. Testing and movement
                                     restrictions increase with each lower classification (see appendices A and B
                                     in UM&R). The five TB status classifications are as follows:

                                     1. Accredited-Free. No TB problem has been identified, or a defined low
                                     prevalence level has been reached. Livestock movement is unrestricted.

                                     2. Modified Accredited Advanced. TB found in less than 0.01 percent of the
                                     herds. Negative TB test required prior to interstate movement for breeding
                                     animals.



9
  High-risk herds are those which have had a history of lesions suggestive of TB (but not confirmed), premises where a TB affected herd has been
depopulated, or herds that contain exposed animals sold from known affected herds. VS Memorandum 552.2 states that when a slaughter traceback does
not identify the herd of origin or infected herd, all consignors must be added to the high-risk herd list.
10
   UM&R Part I (January 2005) defines an affected herd as a herd of livestock in which there is strong substantial evidence that Mycobacterium bovis
(bovine TB) exists. This can include epidemiologic evidence such as contact with known sources of infection.
11
   Under a test and remove plan animals in an affected herd remain under quarantine, are subject to periodic testing, and must be removed for post-mortem
examination if they respond to a primary test. For more detail, see UM&R Part III.J.3 (January 2005).
12
   UM&R, Part III.K.3 (January 2005).
13
   A zone is a bounded land area (e.g., geological, political, man made, etc.) which, for the purposes of BTEP, can be defined as having its own
mechanisms of disease spread, epidemiologic characteristics, and ability to control movement of animals across its boundaries. This definition allows
APHIS to apply its control mechanisms more precisely to areas within States. A State can have multiple TB zones, i.e., Michigan has three zones.

USDA/OIG-A/50601-0009-Ch                                                                                                                       Page 3
                   3. Modified Accredited. TB found in less than 0.10 percent of the herds.
                   Negative TB test required for entire herd of origin (e.g., herd from which
                   animal infected with TB originated) before moving breeding and
                   non-breeding animals.

                   4. Accreditation Preparatory. TB found in less than 0.5 percent of the herds.
                   This status requires significant restrictions and prohibitions on cattle
                   movements.

                   5. Non-Accredited. TB found in 0.5 percent or more herds. This status
                   prohibits movement of cattle for feeding or breeding purposes.

                   As of June 2006, there were 46 States in the highest classification,
                   accredited-free, while the rest of the States and zones were distributed among
                   the next two lower classifications, modified accredited advanced and
                   modified accredited.

                   Mexico

                   The United States imports over 1 million cattle from Mexico every year, and
                   because Mexico has a higher prevalence of TB than the United States, it
                   continues to be the main source of positive TB cases found by APHIS’
                   slaughter surveillance. For example, in 2004 Mexico reported over 2,000 TB-
                   infected herds compared to only 10 reported by the United States.

                   Through cooperative efforts, APHIS and its counterparts in Mexico’s
                   government have been working together to improve Mexico’s TB situation.
                   As part of this effort they established testing requirements for cattle imported
                   from Mexico based upon APHIS’ TB status classification system. The lower
                   status Mexican States or zones have stricter controls. Based upon this system
                   almost all of the United States is accredited-free (the highest classification);
                   but APHIS only considers one zone in Mexico to have a status higher than
                   modified accredited (see exhibit D). Because of the low statuses in Mexico,
                   virtually all cattle are tested prior to export to the United States.

                   Although there are no additional test requirements for cattle after being
                   imported from Mexico, all require official identification in the form of a blue
                   ear tag or “M” or “MX” brand; a certificate of origin with the animals
                   Mexican State of birth; and an international export health certificate. Each
                   certificate is authenticated by APHIS’ counterparts in Mexico’s government.

Objective          The objective of the audit was to evaluate APHIS’ controls to ensure that TB
                   surveillance is adequate to timely detect TB outbreaks for eradication efforts.




USDA/OIG-A/50601-0009-Ch                                                                    Page 4
Findings and Recommendations
Section 1: Control and Oversight of the BTEP

                  Overall, APHIS’ management of the BTEP has been sufficient in that no
                  widespread outbreaks have occurred and TB continues to have a low incidence
                  of occurrence in the United States, in relation to the cattle population as a whole.
                  In recent years APHIS has also made progress on addressing the issues that
                  prompted the Secretary of Agriculture to declare a TB emergency in
                  October 2000. These improvements include a significant increase in the number
                  of lesions and tissue samples submitted by slaughter facilities for TB analysis,
                  and progress with APHIS’ cooperative efforts to address the TB problems in
                  specific zones in the States of Michigan and Texas. Although these
                  achievements are notable, we did identify areas where additional improvements
                  are needed to help APHIS achieve its goal of eradicating TB.

                  We determined that the agency can improve its oversight by making more
                  effective use of the management resources at its disposal. In particular, APHIS
                  can increase its control over States’ execution of the BTEP by timely reviewing
                  and responding to the annual and monthly summaries of program results that
                  States submit to the agency, and by periodically reviewing States for program
                  compliance. This is important as illustrated by the TB outbreak detected in
                  July 2005 in Minnesota, which has resulted in quarantines and testing at over
                  100 cattle herds in 8 States. Timely analyses and clearer operating procedures
                  could have enabled APHIS to recognize and address the program weaknesses in
                  Minnesota in a timelier fashion.

                  APHIS can also enhance its control over the program by adjusting how it
                  determines States’ TB statuses—which dictate the controls necessary to
                  eradicate the disease—by incorporating all known cases of TB into its status
                  system and by requiring timely status reductions in response to an outbreak.
                  Under the current status system, only 12 of 272 TB cases detected by slaughter
                  surveillance in the last 5 years resulted in additional controls or eradication
                  efforts. APHIS also delayed reducing Minnesota’s TB status for 4 months while
                  they continued to investigate the outbreak. As a result, animals continued to
                  leave the State without testing or restriction.




USDA/OIG-A/50601-0009-Ch                                                                      Page 5
Finding 1                         Areas APHIS Can Improve Its Oversight of the BTEP

                                  Three of the tools that APHIS uses to assess States’ BTEP performance are their
                                  annual and monthly reports and program reviews. 14 APHIS, however, has not
                                  used these tools as timely or effectively as it could to maintain oversight and
                                  control. Given limited staff resources, responding to the Secretary’s Emergency
                                  Declaration in October 2000, and priorities that emerged from other animal
                                  diseases (e.g., Bovine Spongiform Encephalopathy and Exotic Newcastle
                                  Disease), APHIS has not consistently emphasized the use of these tools. In
                                  addition, APHIS’ operating procedures were not clear on when or how to use
                                  these reports, and it did not specify how often program reviews should occur. As
                                  a result, APHIS may have missed an opportunity for early detection of a recent
                                  outbreak of the disease, and they have reduced assurance that States are
                                  effectively detecting and eradicating the disease.

                                  Although APHIS is taking steps to improve its program oversight – hiring
                                  additional national staff, establishing performance standards for slaughter
                                  surveillance and for individuals performing on-farm tests, and new timeframes
                                  for completing TB investigations – it needs to enact measures to make better use
                                  of its oversight tools. For example, during FY 2005 Minnesota had an outbreak
                                  of TB detected by slaughter surveillance in Wisconsin, which has resulted in
                                  quarantines and TB testing of over 100 cattle herds in 8 States. Our analysis of
                                  FY 2004 and FY 2005 annual and monthly reports showed that Minnesota and
                                  Wisconsin slaughter surveillance, and Minnesota’s on-farm testing just prior to
                                  the outbreak were well below current standards. Had standards been met in
                                  previous years, it is possible that this increased surveillance could have detected
                                  the disease at an earlier stage.

                                       Annual Reports

                                       According to its operating procedures, APHIS requires each State to submit
                                       an annual report by November 30 every year. These reports inform APHIS
                                       about the prevalence of TB in that State, its management of infected and
                                       high-risk herds, and the overall results of its slaughter surveillance and on-
                                       farm testing. APHIS’ Administrator must review and approve each report in
                                       order for the State or zone to maintain the higher statuses of TB
                                       classification (accredited-free or modified accredited advanced).




 14
   States’ annual reports provide APHIS’ management an overview of States’ BTEP activities and results for the year while their monthly reports indicate
 the number and results of on-farm TB tests conducted for that month. APHIS’ program reviews determine whether or not States are conducting BTEP in
 accordance with agency guidance and Federal regulation.

 USDA/OIG-A/50601-0009-Ch                                                                                                                      Page 6
                                         As of September 2005, however, APHIS had not reviewed 15 of the
                                         50 FY 2004 annual reports and an additional 14 (for a total of 29) had not
                                         been approved. We separately determined that 34 reports were submitted to
                                         APHIS late (after the November 30, 2004, due date). APHIS officials 15
                                         stated that the agency had delayed its reviews for the preceding 2 years
                                         because management resources had been diverted to address other
                                         emergency animal diseases (e.g., Bovine Spongiform Encephalopathy and
                                         Exotic Newcastle Disease) and because the agency had been understaffed.
                                         An APHIS official stated one position had been filled in FY 2005, and that
                                         they are in the process of filling three additional positions in order to
                                         increase their oversight and monitoring capabilities.

                                         In April 2005, over 4 months past the filing deadline, we selected a sample
                                         of nine States’ FY 2004 annual reports for review, including each of the four
                                         TB-affected States (Michigan, Texas, California, and New Mexico) at that
                                         time. One of the nine selected States, Tennessee, had not submitted a report.
                                         We also found that APHIS had not reviewed any of the other eight reports
                                         and five of these reports did not include all of the required data, or contained
                                         questionable data. For example, Minnesota did not report its
                                         on-farm testing results or the number of adult cattle slaughtered. Both
                                         Minnesota and Wisconsin reported slaughter surveillance results well below
                                         current standards (see Finding 5). We also found that all four
                                         TB-affected States (at that time) were deficient in reporting activities related
                                         to high-risk herds (see Finding 6).

                                         Without timely analysis of the annual reports to identify and respond to
                                         issues or assess compliance with their rules, APHIS has limited assurance
                                         that it has correctly determined the State’s TB status and, therefore, limited
                                         assurance that the disease is being effectively detected and eradicated.
                                         During the course of our audit, APHIS added an additional staff member
                                         who initiated reviews of the annual reports, but they had been unable to
                                         include areas such as analyzing reports for trends or proper disclosure and
                                         treatment of high-risk herds.

                                         Monthly Reports

                                         Every month, each State is required to post its on-farm test results to a
                                         database which is accessible for review by APHIS’ national and regional
                                         offices. The effectiveness of on-farm testing is important because it is the
                                         only means by which APHIS will declare an affected herd or adjust a State’s
                                         status (see Finding 2). If the tests results are not accurate, then APHIS may
                                         have miscalculated the prevalence of the disease in some States and
                                         consequently not applied the appropriate testing and movement restrictions.


15
     Throughout this report any reference to APHIS officials means national officials unless otherwise noted.

USDA/OIG-A/50601-0009-Ch                                                                                          Page 7
                                      During our review of internal controls and the procedures related to monthly
                                      reports, we found APHIS did not have procedures in place to review
                                      monthly reports at the national or regional offices. In the absence of
                                      guidance, the national office and the western regional office each believed
                                      that the other was reviewing the reports when neither was. Without such
                                      oversight, the agency has reduced assurance that individuals are
                                      administering on-farm testing according to standards.

                                      We also determined that even though APHIS established a TB performance
                                      standard for individual veterinarians in January 2005, it has not utilized the
                                      monthly reports to assess the effectiveness of each State’s on-farm testing. 16
                                      We applied APHIS’ individual performance standard principle (that at least
                                      1 percent of all cattle are expected to falsely test positive), 17 to nine State’s
                                      monthly reports for the period October 2003 to January 2005. We found that
                                      4 States reported significantly less than the expected number of responders
                                      for the 16 months reviewed. For example, while testing almost
                                      22,000 animals Minnesota reported only 3 responders for the entire period.
                                      Based on APHIS’ standard, we calculated that Minnesota should have
                                      reported 220 responders. In response to this concern, an APHIS official
                                      stated that they intend to increase monitoring of on-farm test results at the
                                      national level, and clarify the region’s responsibilities to review the reports.

                                      Program Reviews

                                      APHIS area offices are responsible for ensuring that all BTEP requirements
                                      are accomplished cooperatively with a State. APHIS’ operating procedures
                                      require each State to have an effective veterinary organization and
                                      infrastructure so that it can carry out BTEP in accordance with program
                                      regulations. 18 APHIS’ reviews measure the area office’s and State’s ability
                                      to comply with program provisions. 19

                                      While APHIS does have criteria for area office reviews, these standards did
                                      not ensure that States were being reviewed. 20 Two of the criteria listed in
                                      APHIS standards to consider for conducting a review are administrative or
                                      program concerns, and the length of time since the last review. However, a
                                      specific length of time is not specified. We examined the western region’s
                                      program review reports from August 1999 to March 2005, and determined
                                      that 16 of the region’s 23 States had not been reviewed for BTEP
                                      compliance. As a result, APHIS lacks the extra assurance these reviews


16
   APHIS’ UM&R Appendix C (January 2005) contains “Performance Standards for Caudal Fold TB Testing.”
17
   APHIS’ performance standards in UM&R Appendix C (January 2005) are based on the premise that at least 1 percent of animals will test positive, but
not have the disease. This is commonly referred to as a false positive result. Animals testing positive are retested at a later date.
18
   UM&R Part V.A.4 (January 2005)
19
   According to VS Memorandum 515.1 (April 18, 2003), there are two types of reviews that APHIS conducts at its area offices: “program” reviews and
“station” reviews. Program reviews focus on BTEP, while station reviews check various administrative and program activities.
20
   VS Memorandum 515.1 (April 18, 2003).

USDA/OIG-A/50601-0009-Ch                                                                                                                     Page 8
                    could provide, that its area offices and State counterparts are adequately
                    executing the program.

                 We recognize that APHIS has faced challenges with allocating its resources to
                 effectively manage emerging animal diseases. In response to these areas, an
                 APHIS official noted that they have been attempting to fill several vacancies
                 that they intend to use to enhance their ability to oversee BTEP, including
                 improvements to the annual and monthly reporting processes. Because other
                 priorities and resource issues have adversely impacted APHIS’ attention to
                 BTEP data in recent years, other weaknesses or vulnerabilities similar to
                 Minnesota may exist; where both on-farm testing and slaughter surveillance
                 results were below standards. Therefore, we believe that APHIS needs to
                 perform a risk assessment using available information to identify weaknesses or
                 program vulnerabilities, and then prioritize its resources to take actions to
                 address highest risk areas. In order to enhance its control over the program on a
                 more consistent basis, APHIS needs to implement procedures that define actions
                 to timely and effectively use its management reports, and to perform program
                 reviews on a more consistent basis.

Recommendation 1

                 Perform a risk assessment using information in annual, monthly or other reports,
                 to identify weak conditions or higher risk factors. Utilizing this information,
                 develop and implement an action plan to address the highest risk areas.

                 Agency Response

                 APHIS officials have analyzed the 2006 annual reports and will conduct risk
                 assessments using the information in the annual, monthly and other reports to
                 identify weaknesses in program delivery at the State level. Based on these risk
                 assessments, they will prioritize resources and identify States to be reviewed by
                 the regional tuberculosis epidemiologist. APHIS officials also agreed to outline
                 this process in a set of standard operating procedures to be completed by
                 December 31, 2006, which will define guidelines and timeframes for reviewing
                 the reports at the national and regional levels.

                 OIG Position

                 We accept APHIS’ management decision.




USDA/OIG-A/50601-0009-Ch                                                                   Page 9
Recommendation 2

                 Establish standard operating procedures including timeframes for the review and
                 approval of States’ annual and monthly reports, and for taking actions on
                 delinquent, errant or incomplete report submissions.

                 Agency Response

                 APHIS officials agreed to establish standard operating procedures for reviewing
                 annual and monthly reports. These procedures will also detail actions to be
                 taken on errant and incomplete reports. They plan to implement the new
                 procedures by December 31, 2006.

                 OIG Position

                 We accept APHIS’ management decision.

Recommendation 3

                 Perform program reviews each year to evaluate whether State TB surveillance
                 and eradication activities are in compliance with regulations and agency
                 procedures.

                 Agency Response

                 The response stated that beginning in FY 2007, APHIS officials will conduct
                 annual program reviews on at least 10 percent of the State programs. They
                 will select States each year after analyzing the States’ annual reports, and
                 base these selections on compliance with program requirements, surveillance
                 efforts and the length of time since a previous review was conducted. The
                 FY 2007 selections will be prepared and ready for APHIS’ management
                 approval by November 1, 2006.

                 OIG Position

                 We accept APHIS’ management decision.




USDA/OIG-A/50601-0009-Ch                                                                Page 10
Finding 2                       APHIS Needs to Improve Its TB Status Classification System

                                In a control central to its management of the BTEP, APHIS classifies States
                                according to a status system under which lower rankings translate into more
                                restrictive control measures. We concluded that this system does not accurately
                                reflect the status of TB in the country because it is based solely on the number of
                                affected cattle herds, and APHIS applies a narrow definition for what it
                                considers to be an affected herd. We determined that APHIS’ practice for
                                declaring affected herds and assessing slaughter cases to source States differs
                                from Federal regulations and APHIS’ operating procedures. As a result, only
                                4 percent (12 of 272) of the TB cases found by slaughter surveillance in the last
                                5 years were reflected in the status system. In a related audit report, because the
                                status system is based solely on cattle, nearly 500 wildlife cases in one State
                                over an 8-year period were also excluded. 21 Without including the majority of
                                known TB cases in its status determinations, APHIS is not implementing its
                                controls over TB as effectively as it could be, thereby weakening its ability to
                                contain and eradicate the disease.

                                APHIS’ internet website notes that TB has been nearly eradicated from the
                                Nation’s livestock population, and demonstrates this with a chart of the TB
                                statuses for all 50 States. As of June 2006, the website illustrates that 46 States
                                are classified as accredited-free, which essentially means that these States have
                                no TB problems. We determined that APHIS based its status decisions for
                                FY 2001 through FY 2005 on 36 affected herds identified by slaughter
                                surveillance and/or on-farm testing (see exhibit A). 22 As noted in the following
                                pages, we determined that a significant number of TB cases were not being
                                included in the status system nor were they reflected on APHIS’ website.

                                The status system is based on the number of TB-affected herds found in a State
                                or zone. Federal regulations define an affected herd as one in which TB has been
                                disclosed in any cattle or bison by an official TB test or by post mortem
                                examination. 23 APHIS’ operating procedures define an affected herd as one in
                                which strong and substantial evidence of TB exists; this evidence should
                                include, but is not limited to histopathology, bacterial isolation, testing data or
                                epidemiologic evidence such as contact with known sources of infection. 24
                                However, in practice APHIS will only declare a herd affected if it has the
                                evidence mentioned in the official definitions, plus an additional infected animal
                                is found during the investigation to identify the animal’s herd(s) of origin. This
                                practice is used because of the difficulty APHIS experiences while trying to


21
   National Cooperative State-Federal Bovine Tuberculosis Eradication Program in Michigan, Audit Report No. 33099-0005-Ch (April 2005).
22
   From FY 2001 through FY 2005, APHIS declared 38 affected herds, of which 2 were later reversed.
23
   9 CFR 77.5.
24
   UM& R Part I.

USDA/OIG-A/50601-0009-Ch                                                                                                                  Page 11
                              identify where an animal originated and where the animal became infected with
                              the disease.

                                 TB Cases Identified by Slaughter Surveillance

                                 For the period of FY 2001 through FY 2005, APHIS’ slaughter surveillance
                                 program identified 272 TB-infected cattle which traced to 22 States (see
                                 exhibit B), yet only 12 of these cases (4 percent) were included for purposes
                                 of determining State status. This occurred because APHIS’ practice for
                                 declaring an affected herd differs from the official definitions, and it does
                                 not apply an existing operating procedure for State status determinations that
                                 specifies what the State of origin should be for an infected animal. As a
                                 result, no additional controls in the form of testing and movement
                                 restrictions were put into place for a majority of TB cases detected in the
                                 past 5 years. Furthermore, these cases are not reflected on APHIS’ website,
                                 so although the BTEP is a cooperative program with States, the States do not
                                 have the benefit of this additional information.

                                 In practice, APHIS will only declare a herd affected for status purposes if its
                                 investigation identifies a source herd, and APHIS is able to find another
                                 infected animal at that source herd with on-farm testing. We determined that
                                 this practice does not agree with the definitions of an affected herd in
                                 Federal regulations or APHIS’ own operating procedures, and it reduces the
                                 number of herds declared affected. As noted in Finding 6, if APHIS’
                                 investigation finds a herd of origin, by that point in time the composition of
                                 the herd may have changed, which can limit the effectiveness of testing. For
                                 example, our review of FY 2004 investigations found that 12 of the 20 herds
                                 of origin experienced turnover and no longer had any animals remaining on
                                 the farm to test. An APHIS official explained that their practice for declaring
                                 an affected herd applies a narrow interpretation of the definitions. He further
                                 explained they follow this practice because of the difficulties they
                                 experience in identifying where an animal originated, and in determining
                                 where the animal became infected with the disease.

                                 We also questioned an APHIS official about why a procedure specific to
                                 assessing slaughter cases to a particular State was not being used for status
                                 purposes. This procedure states “Tuberculosis found during slaughter
                                 inspection or otherwise in any livestock will be considered to have
                                 originated in the State where the animal was slaughtered or the disease was
                                 disclosed unless successful traceback procedures identify another State as
                                 the original source.” 25 In response, an APHIS official explained that they do
                                 not apply the State of origin rule in determining State status, but these cases
                                 are assessed against the appropriate States. However, this assessment does
                                 not result in additional controls or requirements. This official also did not

25
     APHIS’ UM&R Part II.I.

USDA/OIG-A/50601-0009-Ch                                                                               Page 12
                                      feel it was appropriate to apply the rule for status purposes, because it would
                                      penalize States with larger slaughter facilities and feedlot operations,
                                      particularly those that deal with cattle imported from Mexico.

                                      Herds with Strong Evidence of TB

                                      Our analysis of APHIS epidemiologic investigations found that APHIS did
                                      not always declare a herd affected when there was strong evidence of TB.
                                      We identified three herds that were not declared affected even though each
                                      met the definition of an affected herd by APHIS’ regulations and operating
                                      procedures. These herds had strong evidence of TB, which was disclosed
                                      through either on-farm TB testing and/or post mortem examination. One of
                                      the cases would have adversely impacted State status, while another would
                                      have expanded the existing affected zone.

                                      In separate investigations, four TB-infected cattle were traced to a single
                                      herd in New Mexico that was not declared affected. This herd was originally
                                      reported affected in APHIS’ publications, but APHIS later reversed its
                                      decision. 26 We concluded that four infected cattle constituted strong
                                      evidence of infection. However, an APHIS official stated that they only
                                      considered the herd exposed, not affected, because they were unable to
                                      confirm the infection at the premises with successful on-farm tests. 27 New
                                      Mexico has an affected zone consisting of two counties. This case was in an
                                      adjacent county, so it could have expanded the affected zone had it been
                                      declared an affected herd.

                                      In a related situation, one TB-infected animal was found by on-farm testing
                                      in an Arizona herd prior to interstate transportation. Similar to the New
                                      Mexico herd in the previous paragraph, APHIS originally reported this herd
                                      as affected in its publications, but subsequently reversed the decision. An
                                      APHIS official stated this herd was only classified as an exposed herd
                                      because the animal originated from the aforementioned New Mexico herd.
                                      This animal was found by on-farm testing, and since it resided at that
                                      premises for more than 4 months, by another APHIS definition, it qualified
                                      as a herd of origin. Had this herd been declared affected, Arizona’s status
                                      would have qualified for reduction when another affected herd was found in
                                      FY 2005.

                                      Our third example involves an animal that was born, raised and slaughtered
                                      in the same State (Nebraska). This case was detected via slaughter
                                      surveillance, and it was determined that the animal lived at only two
                                      locations in its lifetime, both in the same State. The animal in question
                                      proceeded directly from its second residence to slaughter. This case was not

26
   APHIS reported the New Mexico and Arizona cases as affected herds in its FY 2004 United States Animal Health Report, its FY 2004 report to the
Office of International Epizooties, and in its Status of State/Federal Cooperative Bovine TB Eradication Program, FY 2004.
27
   APHIS UM&R defines an exposed animal as any livestock exposed to TB by associating with other livestock in which TB has been diagnosed.

USDA/OIG-A/50601-0009-Ch                                                                                                                  Page 13
                                       assessed against the State because APHIS was unable to find an additional
                                       infected animal during on-farm testing of the two herds of origin. Had an
                                       affected herd been assessed against the State, it would not have impacted
                                       State status, as it takes 2 cases within a 48-month period to adversely impact
                                       status. 28

                                       Wildlife Infect Livestock with TB

                                       In a related audit report, we found that APHIS excluded wildlife TB cases
                                       from the status system, and as a result, did not include close to 500 TB cases
                                       in deer and other animals in Michigan (from FYs 1995 to 2002). 29 Wildlife
                                       was infecting livestock in Michigan, such that the Secretary included it as
                                       one of the main reasons for a TB Declaration of Emergency in
                                       October 2000. In response to our previous audit, APHIS agreed to revise its
                                       status classification standards for Michigan’s infected zone to include
                                       measurements of TB in the wildlife population as a status-determining
                                       factor. APHIS is still in the process of implementing corrective actions to
                                       that audit. Because TB cases have since been found in Minnesota wildlife,
                                       and continue to be found in Michigan, we asked an APHIS official whether
                                       they planned to make earlier corrective actions specific to Michigan, or
                                       nationwide. This official responded that the corrective actions would be
                                       nationwide. As a result, we will not make an additional recommendation in
                                       this report.

                                  We concluded that APHIS needs to improve the TB status classification system
                                  to better reflect the current status of TB in the United States. By incorporating
                                  these results into the status system, APHIS could better target its controls and
                                  testing to States/zones with more TB cases, thereby enhancing the eradication
                                  program. Although TB incidence in the United States is at a low level, the status
                                  system and APHIS website do not clearly illustrate TB in the country, or ensure
                                  controls are put in place when it is detected. With a more accurate
                                  representation, States may choose to implement additional controls, similar to
                                  when APHIS delayed downgrading Minnesota’s status during the latest TB
                                  outbreak, when a number of States imposed their own restrictions upon
                                  Minnesota cattle. Because the status system is outlined in both APHIS
                                  regulations and rules, adjustments would be needed to both to better address
                                  these issues.

                                  While APHIS officials provided explanations for why their practice for
                                  declaring an affected herd differs from the official definitions, and why they do
                                  not apply the State of origin rule for status purposes, they do agree
                                  improvements are needed, and they continue to explore ways to improve the
                                  program. APHIS’ website notes that in 2009, the National Animal Identification
                                  System (NAIS) will trace infected animals to their herd(s) of origin within
28
     9 CFR 77.7 (c).
29
     National Cooperative State-Federal Bovine Tuberculosis Eradication Program in Michigan, Audit Report No. 33099-0005-Ch April 2005.

USDA/OIG-A/50601-0009-Ch                                                                                                                  Page 14
                 48 hours. Our recommendations can help improve current practices and serve as
                 a precursor to the animal identification system, as it will assess all of these cases
                 to the appropriate States when it is implemented.

Recommendation 4

                 Expand TB status classification guidelines to include all bovine TB-infections,
                 including animals identified by slaughter surveillance, to be status-determining
                 factors for State TB-status classifications.

                 Agency Response

                 APHIS officials stated that they need to do more to account for each case of TB,
                 while not inappropriately penalizing States that have the majority of
                 slaughtering and feedlot facilities where these cases are found. They are
                 carefully examining modifying TB status classification guidelines and
                 developing a proposed rule to be published in the Federal Register by
                 April 2007. The proposal will require herds be placed on a high-risk herd list
                 for further testing, and be tested whenever another epidemiological trace
                 identifies them as a possible source. In addition, the agency’s response to
                 Recommendation 5 explains that it will also expand the classification guidelines
                 to include use of DNA technology to confirm the source of slaughter samples.

                 OIG Position

                 We accept APHIS’ management decision.

Recommendation 5

                 Revise the current practice of declaring a herd affected only if it is confirmed by
                 on-farm testing to conform to the existing regulatory and operating procedure
                 definition(s) of an affected herd.

                 Agency Response

                 In the response, APHIS officials noted that their goal is to find every infected
                 herd in the Nation, but to accomplish that goal additional animal identification is
                 needed on most animals. Prior to this year, DNA technology had not been
                 available to help confirm the source of slaughter samples. That technology is
                 now available; therefore, APHIS will propose (in the new regulations),
                 expansion of the status classification guidelines to include bovine infections that
                 can be traced back to herds of origin, without finding infected animals in the
                 herd, based on DNA confirmation of the source animal for the positive slaughter
                 sample, and where the epidemiology clearly shows the animal most likely had
                 the infection while it was a member of the herd. APHIS will publish the
                 proposed rule by April 2007.
USDA/OIG-A/50601-0009-Ch                                                                     Page 15
                               OIG Position

                               We accept APHIS’ management decision.

Recommendation 6

                               On a current and historical basis (for the preceding 5 years), publish all TB cases
                               (slaughter or otherwise identified) on APHIS’ website.

                               Agency Response

                               APHIS officials stated they have initiated the process to publish all positive
                               M.bovis cases on their website. They plan to complete this process by
                               October 30, 2006.

                               OIG Position

                               We accept APHIS’ management decision.




Finding 3                      Controls Were Not Implemented Timely in Response to an Outbreak

                               We determined that APHIS could have taken more timely action to lower
                               Minnesota’s TB status after an outbreak was detected. Despite meeting the
                               regulatory criteria for having its TB status lowered in September
                               2005 (2 or more affected herds in a 48-month period), APHIS decided to delay
                               this action until they could complete the epidemiologic investigations. APHIS
                               lowered Minnesota’s status on January 30, 2006, after two additional herds were
                               declared affected (but before the investigation was completed). The delay in
                               lowering Minnesota’s TB-status was permitted by APHIS’ operating
                               procedures 30 but contradicted Federal regulations. 31 As a result, Minnesota
                               continued to export cattle for 4 months before being subjected to mandatory
                               testing. In addition, while APHIS delayed its action, several States imposed
                               their own controls and protections with regards to Minnesota cattle.

                               Federal regulations state that when one affected herd is detected in an
                               accredited-free (disease free) State, the State may retain its accredited-free status
                               if the herd is depopulated, and the epidemiologic investigation is completed
                               within 90 days of the detection with no evidence of the spread of TB. 32 The
                               regulations further state that if 2 or more TB-affected herds are detected in an

30
   UM&R Part V.D.1.b and c (January 2005).
31
   9 CFR 77.7 (c).
32
   9 CFR 77.7 (c).

USDA/OIG-A/50601-0009-Ch                                                                                   Page 16
                                   accredited-free State in a 48-month period, the State will be reclassified as
                                   modified accredited advanced.

                                   APHIS’ operating procedures differed from regulations. These procedures
                                   describe how a State’s status can remain accredited-free if an epidemiologic
                                   investigation of the initial affected herd is completed within 90 days, and
                                   investigation of subsequent affected herds is completed within an additional
                                   120 days, with no evidence of spread of the disease. 33 The procedures also state
                                   that if 2 epidemiologically unrelated bovine TB-affected herds are detected in a
                                   TB-free State within a 24-month period … the Administrator will determine
                                   whether or not to lower the status.

                                   In February 2005, a TB-infected animal was detected at a Wisconsin slaughter
                                   facility, and traced to a Minnesota herd. Testing on this herd disclosed an
                                   additional 18 infected animals. APHIS completed the testing and declared the
                                   herd affected in July 2005, and began tracing prior animal movements in and out
                                   of this herd and also conducted testing of neighboring herds.

                                   Additional testing based upon the tracing of animal movements in and out of the
                                   affected herd, and testing of neighboring herds identified two other affected
                                   herds in September 2005, at which time Federal regulations indicate
                                   Minnesota’s status should have been lowered to modified accredited advanced.
                                   By December 2005, a total of five affected herds and one infected deer were
                                   reported in Minnesota. 34 However the State was still classified as accredited-free
                                   so no testing or movement restrictions were put into effect by APHIS. When
                                   APHIS delayed lowering Minnesota’s status, several States imposed their own
                                   restrictions. On January 30, 2006, 4 months after meeting the regulatory criteria
                                   for downgrade, APHIS lowered Minnesota’s TB-status to modified accredited
                                   advanced. An APHIS official explained that they decided to delay lowering the
                                   status until the investigation was completed, but finally proceeded with the
                                   reduction after the fifth affected herd was found. As of June 2006, the
                                   investigation was still in process and has impacted over 100 other herds in
                                   8 States.

                                   We concluded that APHIS needs to revise its operating procedures regarding an
                                   outbreak of TB to include prompt actions to lower a State’s TB status when it
                                   becomes known the disease is not isolated to one herd. When APHIS revised
                                   them in January 2005, the results deviated from regulations. We discussed this
                                   difference and others that resulted from the update with an APHIS official, who
                                   indicated that they plan to modify both the procedures and regulations where
                                   needed.




33
     UM&R Part V.D.1.b and c (January 2005).
34
     A second infected deer was reported in January 2006.

USDA/OIG-A/50601-0009-Ch                                                                                     Page 17
Recommendation 7

                 Revise the UM&R to be in accordance with 9 CFR 77.7(c), by requiring that an
                 accredited-free State’s status be immediately lowered once an outbreak (of 2 or
                 more affected herds in a 48-month period) is detected.

                 Agency Response

                 The response stated that the UM&R has been revised in accordance with
                 9 CFR 77.7(c). This was completed on March 14, 2006. APHIS officials will
                 also clarify the regulations to make the process of lowering a State’s status more
                 immediate. These changes will be completed by April 2007.

                 OIG Position

                 We accept APHIS’ management decision.




USDA/OIG-A/50601-0009-Ch                                                                  Page 18
Section 2: TB in Mexico Hampers Eradication Efforts




Finding 4                       Controls Over Cattle from Mexico Need to be Improved

                                Between FYs 2001 and 2005, 75 percent (205 of 272) of the TB cases detected
                                through slaughter surveillance were determined by APHIS to have originated
                                from Mexico. In response, APHIS has worked with Mexico to improve their TB
                                eradication program; however, these efforts are undermined by the disease’s 3 to
                                12 month incubation period. Cattle may test negative for the disease prior to
                                export, but develop TB and infect U.S. cattle after import. Although the majority
                                of TB-infected cattle found by slaughter surveillance in the United States are
                                from Mexico, APHIS has not developed controls to restrict the movement of
                                cattle, or require additional testing to compensate for the disease’s incubation
                                period. Until additional controls are added, APHIS cannot reasonably expect to
                                achieve its goal and eradicate TB when it is being imported into the United
                                States each year.

                                Each year, Mexico exports approximately 1 million cattle to the United States.
                                Because of a higher prevalence of the disease in Mexico, cattle are more likely
                                to be infected with TB. As of September 2005, the United States had 47 States
                                classified as accredited-free, 35 while APHIS indicates Mexico had no
                                accredited-free States (see exhibit D). In addition, Mexico reported over
                                2,000 TB-infected cattle herds in 2004 compared to just 10 positive herds
                                reported by the United States. 36

                                Controls for the import of animals from Mexico are covered in Federal
                                regulations and by APHIS’ operating procedures. 37 APHIS publishes updates to
                                import controls in VS Notices. The VS Notices describe specific status rankings
                                of each Mexico State/zone, and the import requirements for that status.

                                We analyzed APHIS’ slaughter surveillance results and the TB cases detected
                                between FYs 2001 through 2005 and determined that 75 percent (205 of 272) of
                                the cattle identified as TB-positive originated in Mexico. In our analysis of
                                FY 2004 investigations of TB-infected cattle found at slaughter, we found that
                                the Mexican-origin cattle spent 5 to 14 months at U.S. farms and feedlots prior
                                to arriving at slaughter facilities. At these premises, the Mexican-origin cattle
                                may be commingled with domestic cattle without restriction. In general over
                                99 percent of the cattle imported from Mexico spend time on U.S. premises
                                prior to slaughter.


35
   As of June 2006, the United States had 46 accredited-free States due to the January 2006 lowering of Minnesota’s status.
36
   Annual Report - Food and Agriculture Organization /Organization Internationale des Epizooties /World Health Organization Questionnaire – 2004.
37
   9 CFR 93.427(c) and UM&R Part V.D. and Appendices A and B (January 2005).
USDA/OIG-A/50601-0009-Ch                                                                                                                      Page 19
                                    Despite the higher prevalence of TB-infected cattle in Mexico, APHIS has not
                                    established additional import controls or requirements to test or restrict the
                                    movement of Mexican cattle after importation to the United States. Furthermore,
                                    even though animals are tested before being exported to the United States,
                                    according to APHIS, the disease can incubate for a period of 3 to 12 months, 38
                                    and evade detection while it incubates. After being imported, these animals
                                    simply become part of U.S. herds and can be traded and transported throughout
                                    the country. As illustrated below, the lack of additional controls has resulted in
                                    infected cattle being detected in 12 States over the last 5 years.




                                                                        TB Cases Traced to Mexico for FYs 2001-2005


                                    Beginning in 1998, APHIS and its counterparts in Mexico have worked
                                    cooperatively to improve Mexico’s TB prevention and detection efforts. Specific
                                    import documentation and testing requirements were implemented based upon
                                    APHIS’ status classification system. When affected herds are found, stricter
                                    testing and movement controls go into effect before cattle can enter the United
                                    States from that Mexican State/zone. Because of APHIS’ assessment of low
                                    State/zone statuses that exist in Mexico, all cattle imported from Mexico are
                                    tested prior to import, except for steers and spayed heifers from Mexico’s only
                                    modified accredited advanced zone. These efforts have resulted in a reduction in
                                    the number of TB cases traced to Mexico. From FYs 2001 through
                                    2005 APHIS’ slaughter surveillance identified 54, 75, 27, 22 and 27 Mexican
                                    origin TB cases, respectively.

                                    Even though the above actions were taken, we concluded that additional actions
                                    are necessary to address the importation of cattle with TB from Mexico. Until
                                    additional controls are implemented, APHIS cannot reasonably expect to
                                    achieve its goal of eradicating TB from the United States, and this places the
                                    United States at risk for additional outbreaks of the disease. An APHIS official
                                    agreed that additional measures are needed to further curb the influx of disease
                                    from Mexico, and discussed an agency plan to strengthen restrictions on cattle
                                    movements with a change to the status classification system. This proposal

38
     Webster’s Dictionary defines “incubation” as the phase in the development of a disease between the infection and the first appearance of symptoms.
USDA/OIG-A/50601-0009-Ch                                                                                                                           Page 20
                 included restricting cattle movements from accredited preparatory States/zones
                 to only pre-approved locations. APHIS determined that a higher ratio of infected
                 animals originated from accredited preparatory States/zones in Mexico when
                 compared to imports from modified accredited States/zones. However,
                 accredited preparatory States/zones only account for approximately 20 percent
                 of the cattle imported from Mexico. The majority (up to 80 percent) of cattle
                 imported from Mexico come from modified accredited States/zones. So
                 although modified accredited States/zones account for a lower ratio of TB cases,
                 more TB cases originate from modified accredited areas. While APHIS’ plan
                 should help reduce the potential spread of the disease, it will not prevent the
                 disease from being imported. In order to more completely address the incubation
                 period, we believe that APHIS needs not only to implement its current proposal,
                 but to develop and implement other measures to address modified accredited
                 States/zones. However, at the time of our audit, APHIS did not have a plan or
                 strategy to address the incubation period for cattle from modified accredited
                 States/zones. Because the inflow of animals from modified accredited
                 States/zones in Mexico is significant (approximately 800,000 annually), APHIS
                 may need to incorporate the use of random sampling to select cattle for
                 additional testing.

Recommendation 8

                 Implement the plan to strengthen movement and testing controls by adjusting
                 the TB status classification system to restrict cattle movements from accredited
                 preparatory States/zones to pre-approved locations. Develop a plan to implement
                 additional actions to account for the TB incubation period for modified
                 accredited States/zones.

                 Agency Response

                 APHIS’ response stated they are in the process of amending and strengthening
                 its regulations in a proposed rule to restrict the movement of cattle from TB
                 accredited preparatory States/zones to pre-approved designated facilities only.
                 This proposed rule will be published by April 2007. They are also in the process
                 of developing a plan to implement additional actions to account for the TB
                 incubation period for modified accredited States/zones. They plan to propose
                 these additional actions to the States and industry for discussion this fall, and if
                 general consensus is obtained incorporate the changes to the CFR through a
                 proposed rule by April 2007.

                 OIG Position

                 We accept APHIS’ management decision.




USDA/OIG-A/50601-0009-Ch                                                                       Page 21
Section 3: Detection, Investigation and Eradication of Bovine TB

                  The goal of the BTEP is to eradicate the disease. APHIS accomplishes this
                  through three phases: disease detection, an epidemiologic investigation, and then
                  eradication. Detection is accomplished under an agreement between APHIS and
                  FSIS, where FSIS inspects carcasses for the disease during slaughter. Once
                  detected, APHIS initiates an investigation to find the source of the disease so it
                  can be eradicated. Our audit determined that significant improvements have
                  been made to detect the disease, but room for improvement still exists. We also
                  determined that APHIS struggles to timely and successfully locate the source of
                  the disease. When the investigation process is unsuccessful, eradication does not
                  occur.

                  APHIS’ inability to locate the source of the infection was caused by a lack of
                  animal identification, recordkeeping weaknesses, herd commingling, timeliness,
                  or a combination of these factors. APHIS has made procedural adjustments to
                  address some of these areas, such as requiring investigations to be completed
                  within 90 days, but it has not provided sufficient training or other resources to
                  ensure these measures function as intended. For example, on average, FY 2004
                  investigations took 300 days to complete. While we agree that setting a
                  timeframe is an appropriate measure, APHIS also needs to help with training
                  and resources to help its investigators meet that new timeframe.

                  The NAIS initiative is expected to greatly assist with disease investigations, but
                  it is not projected to be in place until 2009. Until that time APHIS needs to
                  improve upon its ability to find the disease. One mechanism we believe APHIS
                  was under utilizing was high risk herds. High risk herds provide APHIS a tool to
                  target testing to questionable areas. When an investigation doesn’t find the
                  source of infection, all potential sources are to be added to a high risk herd list,
                  and be monitored and tested in subsequent periods.




Finding 5         Detection Has Been Significantly Improved but More Work Is
                  Needed

                  APHIS detects TB primarily through slaughter surveillance conducted by FSIS
                  inspectors who submit suspicious lesions from carcasses to laboratories for
                  testing. The APHIS standard for submission is 1 lesion per 2,000 slaughtered
                  cattle at each facility. APHIS and FSIS have made significant improvements
                  toward meeting this standard in recent years; however, since FSIS does not
                  require each individual slaughter facility to meet this standard, submissions at a
                  given facility may fall short of APHIS’ standard for lesion submission. This has
                  occurred because each agency has applied a different interpretation to language
                  in their memorandum of understanding (MOU). As a result, APHIS cannot

USDA/OIG-A/50601-0009-Ch                                                                        Page 22
                                 ensure that individual slaughter facilities test for TB at the rate that the agency
                                 determined to be optimal for detecting the disease. This may in turn hamper its
                                 efforts to identify and eradicate localized outbreaks before they become
                                 widespread.

                                 In October 2000, the Secretary of Agriculture issued an Emergency Declaration
                                 for TB which stated that the low levels of testing for tuberculosis (lesion
                                 submissions from slaughter) threaten to allow spread of the disease in the United
                                 States. Since that time, APHIS and FSIS have significantly improved detection
                                 activities by increasing lesion submissions for laboratory testing from 1,028 in
                                 FY 2000 to 9,439 in FY 2005.

                                 In January 2005, APHIS adopted the standard that each slaughter facility would
                                 submit 1 lesion per 2,000 adult cattle slaughtered. (APHIS previously
                                 determined that this standard was the optimal TB surveillance rate but had set it
                                 as a goal in prior years rather than a requirement.) 39 However, an FSIS official
                                 noted that APHIS’ standard does not have regulatory force for the FSIS
                                 inspectors who submit the samples. Instead, they are bound by a June 2005,
                                 MOU signed between APHIS and FSIS. This memorandum requires FSIS to
                                 submit “at least one lesion per 2,000 adult cattle” but does not specify whether
                                 FSIS inspectors must meet that rate at each slaughter facility, or as an average
                                 rate calculated from all the lesion submissions at all the slaughter facilities.

                                 In an interview, an FSIS official pointed to the latter interpretation in order to
                                 explain why 5 of the top 40 facilities did not meet APHIS’ optimal submission
                                 standard in FY 2005. Since the overall rate from all the facilities exceeded 1 in
                                 2,000, FSIS determined that it had met the terms of the MOU. With this
                                 interpretation the submissions at a given facility may decline below the standard
                                 and be made up for by increased submissions at other facilities. In FY 2005, for
                                 example, one facility submitted no lesions while another submitted almost
                                 16 times the required number. Furthermore, although 5 facilities falling below
                                 the standard represents a significant improvement over the 21 that fell below the
                                 standard in FY 2004, according to FSIS’ interpretation of the memorandum, the
                                 standard was met each year.

                                 Relying on the overall national average diminishes the effectiveness of APHIS’
                                 TB surveillance. Since FSIS inspectors at some facilities may submit no lesions
                                 for testing—a fact veiled by the overall submission rate—APHIS may miss the
                                 chance to timely detect and eradicate a TB outbreak. For example, although the
                                 1 in 2,000 standard was met on a nationwide basis in FY 2004, 2 key slaughter
                                 States, Minnesota and Wisconsin, were well below the standard and did not
                                 detect the latest TB outbreak until improvements in their lesion submissions
                                 occurred in FY 2005.


39
  The standard was first derived from a 1969 APHIS study, based on statistical principles, in which APHIS determined that this rate would constitute the
optimal surveillance rate and repeated in a 1994 report of the Committee on Bovine Tuberculosis Board on Agriculture National Research Council.
USDA/OIG-A/50601-0009-Ch                                                                                                                         Page 23
                 The current TB outbreak in Minnesota was detected by a Wisconsin slaughter
                 facility in FY 2005. Minnesota and Wisconsin have 8 slaughter facilities ranking
                 in the top 40 in the country, 7 of which did not meet the lesion submission
                 standard in FY 2004. One facility in Minnesota reported submitting only
                 1 lesion for 193,000 slaughtered cattle, well below the expected figure of 96. In
                 aggregate, Minnesota’s 3 largest facilities averaged 0.09 submissions per
                 2,000 in FY 2004, while the 5 Wisconsin facilities averaged 0.56. In FY 2005,
                 marked improvements occurred at all 8 facilities with 6 meeting or exceeding
                 the standard. An APHIS official credited the improvements in lesion
                 submissions in these States as being responsible for detecting this TB outbreak.

                 We concluded that APHIS and FSIS have made significant improvements in
                 detecting TB at slaughter facilities, as demonstrated by the significant increase
                 in lesions submitted over the 5-year span. However without requiring each
                 facility to comply with the established submission standard, APHIS cannot
                 accomplish optimal levels of surveillance that are representative of all
                 geographical regions of the country. An APHIS official said that they had
                 communicated their desire for this to be a plant-by-plant requirement to FSIS,
                 and that they intended to pursue getting the requirement codified into Federal
                 regulations. As it will take considerable time to propose and complete the
                 regulatory process, we are recommending that the two agencies adjust their
                 MOU to reflect the 1 in 2,000 standard as a requirement on an individual plant
                 basis.

Recommendation 9

                 Revise the June 2005, MOU between APHIS and FSIS titled “Relative to
                 Cooperation with Respect to Surveillance Programs,” to reflect that the
                 slaughter surveillance rate of 1 lesion submission per 2,000 adult cattle
                 slaughtered is a requirement for each slaughter facility.

                 Agency Response

                 The response stated that APHIS and FSIS officials proposed an alternative
                 corrective action to our recommendation. APHIS will continue to provide FSIS
                 with a quarterly report on TB sample submissions for the top 40 cull cow
                 slaughter plants. Further, FSIS officials will correlate with in-plant inspection
                 personnel on an ongoing basis to ensure APHIS’ sampling targets are met in
                 these establishments. For other establishments, FSIS officials will update the
                 appropriate TB directive to reflect the overall surveillance goal of 1 lesion
                 submission per 2,000 adult cattle. They expect to have the relevant TB directives
                 updated by December 2006.

                 Additionally, FSIS will update their public health veterinarian training to reflect
                 the overall surveillance goal of 1 lesion per 2,000 adult cattle as well as the
                 importance of collecting and submitting representative lesions from all
USDA/OIG-A/50601-0009-Ch                                                                      Page 24
                               establishments. The updated training will be completed by December 2006.
                               Finally FSIS will publish articles in "News and Notes" periodically during
                               FY 2007. “News and Notes” is a weekly document that reaches the FSIS
                               employees who collect TB samples. This document is a widely-read publication
                               that covers current issues of importance to FSIS. FSIS management believes that
                               this will keep TB sampling on the forefront for agency employees.

                               OIG Position

                               We accept APHIS’ and FSIS’ management decision.




Finding 6                      BTEP Investigations Were Not Timely or Effective

                               After APHIS discovers a case of bovine TB, the agency initiates an
                               epidemiologic investigation to find the disease’s source, in order to eradicate the
                               disease. Our audit determined that APHIS’ investigations to find the source of
                               TB were typically neither effective nor timely. Of 36 investigations initiated in
                               FY 2004, not a single domestic source of TB was identified for eradication. The
                               average time for an investigation was 300 days, far beyond the current standard
                               of 90 days established by APHIS. We found that investigations were hampered
                               by the lack of information, either on a particular animal, or in terms of
                               documentation kept by owners, dealers or brokers. APHIS also implemented
                               new requirements to improve certain aspects of the program; however, it did not
                               follow-up with training or other assessments to determine the effectiveness of
                               the new requirements. When the investigation process is unsuccessful,
                               eradication does not occur. The timely success of these investigations is critical
                               to APHIS’ ability to contain and eradicate the disease.

                               If a laboratory confirms TB in an animal found at slaughter, it refers the case to
                               the applicable APHIS area office for investigation. A case will generally trace
                               from the slaughter establishment to a feedlot, where the animal may have spent
                               considerable time and was commingled with animals from other locations.
                               When the documentation trail fades, these investigations may proceed by word
                               of mouth and considerable time may elapse before one or more source herds are
                               located. When a source herd is found, APHIS tests the herd for the disease, and
                               will only consider the herd affected if current stock has the disease. If the testing
                               is negative, the farm should be added to the high-risk herd list for future
                               monitoring and testing. 40

                               We reviewed all 36 FY 2004 TB slaughter surveillance initiated investigations
                               and determined that all 36 were unsuccessful at finding a domestic source of the
                               disease. The investigations were unable to locate the herds of origin for 16 of

40
     VS Memorandum 552.2 Part V.D.6.
USDA/OIG-A/50601-0009-Ch                                                                                      Page 25
                                 36 TB-infected cattle (see exhibit F). 41 In the remaining 20 investigations,
                                 APHIS identified herds of origin, but was unable to confirm those locations as
                                 the source of the disease (i.e. an affected herd). APHIS was able to determine
                                 that 22 of the 36 animals had been imported from Mexico, but since each of
                                 these animals spent time at U.S. farms or feedlots prior to slaughter, they could
                                 not be certain where the animal became infected, or may have spread the
                                 disease.

                                 We determined that there were four main difficulties impeding APHIS’ FY 2004
                                 investigations: animal identification, recordkeeping, herd commingling, and
                                 timeliness of completing investigations. Some cases were impacted by a
                                 combination of these factors. An APHIS official noted the problems found and
                                 overall results of our analyses were typical for their investigations. As noted in
                                 Finding 2, from FYs 2001 through 2005, APHIS’ investigations only found the
                                 source of the infection for 12 of 272 slaughter surveillance detected cases of TB.

                                       Animal Identification

                                       Under current Federal regulations, calves, steers, and spayed heifers are
                                       exempt from animal identification requirements. 42 If one of these types of
                                       cattle tests positive for TB, the lack of identification can impede APHIS’
                                       investigation. Our analysis showed nine cases in which slaughtered steers
                                       tested positive for TB but their lack of identification hampered APHIS’
                                       attempts to trace them back to their herds of origin. APHIS acknowledged its
                                       overall difficulty with tracing younger cattle in a recent report on the status
                                       of the BTEP: “The potential for successfully concluding these investigations
                                       is hindered by our inability to trace younger unidentified cattle and account
                                       for their movements throughout their lifetimes.” 43

                                       APHIS’ trace back efforts were also inhibited in five cases because feedlots
                                       removed cattle identification that could have helped trace animals found to
                                       be infected with TB at slaughter. As of November 2004, Federal regulations
                                       now prohibit the removal of official tags. 44

                                       APHIS is in the process of working with the cattle industry to address
                                       weaknesses in animal identification and the ability to timely trace infected
                                       animals through a major initiative—the NAIS. The goal of NAIS is to be
                                       able to identify all animals and premises that have had contact with an
                                       infected animal within 48 hours from discovery. APHIS projects that the
                                       system will be in place by FY 2009.


41
   A herd of origin may be the herd where the animal was born, or where it has resided for at least 4 months prior to movement, or part of a group of two
or more herds maintained at different locations where there is movement between groups. A single animal, then, may have multiple herds of origin. For
APHIS’ definition of “herd of origin,” see UM&R “Definitions,” (January 2005).
42
   9 CFR 71.18.
43
   “FY 2005 Status of the State and Federal Cooperative Bovine Tuberculosis Eradication Program.”
44
   9 CFR 71.22.
USDA/OIG-A/50601-0009-Ch                                                                                                                           Page 26
                                      Recordkeeping

                                      Under current regulations, dealers and brokers, but not individual herd
                                      owners, are subject to recordkeeping requirements. 45 In three cases, we
                                      determined that APHIS was unable to continue its investigations since
                                      owners were not required to maintain documentation of cattle movement. In
                                      another instance a cattle dealer had no records of the origin of the infected
                                      animal but because the 2-year record retention period had passed, the dealer
                                      was no longer obligated to maintain records for this animal.

                                      In its operating procedures, APHIS increased the recordkeeping
                                      requirement for dealers and brokers from 2 years in 2005 to 3 years
                                      as of January 1, 2006, 4 years as of January 1, 2007, and 5 years as of
                                      January 1, 2008.

                                      Herd Commingling

                                      When an investigation into the source for a TB infection leads to a lot (e.g., a
                                      slaughter lot or feedlot) where more than one owner has consigned animals,
                                      APHIS’ policy emphasizes to “trace and test all possible sources until the
                                      infected herd is located.” If the source of infection cannot be located, the
                                      policy also states that all consignors be added to the high-risk herd list. 46 We
                                      determined this rule was not followed for three FY 2004 investigations
                                      which were closed as untraceable. For two of these cases, APHIS concluded
                                      that since Mexican and domestic origin cattle were commingled into a lot,
                                      because the majority of the animals were from Mexico, the infected animal
                                      likely came from Mexico.

                                      An APHIS regional official explained that these cases involved multiple
                                      potential source herds commingled into a lot without certainty as to the
                                      actual source herds. When this occurs he does not require all potential source
                                      herds to be tested. An official from the national office indicated that the
                                      regional official could best judge whether to conduct further testing. The
                                      national official also noted that they have not had the personnel to provide
                                      national oversight of investigations in recent years, but he planned to fill a
                                      current vacancy with a national epidemiologist, who would have this as an
                                      assigned duty.

                                      By not testing all sources the region did not follow an existing national
                                      policy. APHIS has no means to ensure nationwide consistency if policies are
                                      not followed, or the national office doesn’t periodically review cases. A
                                      mechanism for policy exceptions could be written into APHIS’ guidance,
                                      requiring exceptions to receive written concurrence of other APHIS officials.


45
     UM&R Part II.K. (January 2005).
46
     VS Memorandum 552.2 Part V.D.5. (April 1, 2005).
USDA/OIG-A/50601-0009-Ch                                                                                         Page 27
                                       Timeliness of Completing Investigations

                                       The above difficulties with tracing the source of TB-infected cattle were
                                       compounded by APHIS’ lack of timely investigations. For FY 2004, we
                                       determined that 33 of the 36 investigations were not completed timely—
                                       taking between 95 and 687 days (see exhibit E). APHIS spent an average of
                                       300 days on FY 2004 investigations. This gives ample time for a herd to
                                       develop the disease and spread it to other herds as cattle are bought, sold,
                                       commingled, or transported throughout the country.

                                       When a herd of origin is found APHIS will only declare that herd affected
                                       if the investigation finds a current case of the disease in the herd with an
                                       on-farm test. However, by the time an investigation finds a herd of origin,
                                       the composition of the herd may have changed. This limits the effectiveness
                                       of testing and the number of affected herds found. For 12 of the 20 FY 2004
                                       cases where a herd of origin was located, there were no cattle at the premises
                                       to test, and testing was not successful at the other 8 locations.

                                       In January 2005, APHIS began to require all investigations be completed
                                       within 90 days of initiation. (We derived our measure of timeliness for
                                       FY 2004 investigations from this requirement.) Although average cases were
                                       running well in excess of 90 days, APHIS did not support the
                                       implementation of this procedure with added resources or training to assist
                                       area offices in meeting the new timeframe. As a result, our analysis of
                                       FY 2005 cases opened after the rule went into effect but closed by
                                       November 2005 did not find noticeable improvement, as most cases
                                       (12 of 16) still exceeded 90 days. An APHIS official agreed that additional
                                       guidance and training were needed to improve the timeliness of
                                       investigations.

                                       High-Risk Herds

                                       Generally on-farm TB testing takes place because a State/zone has affected
                                       herds, it is part of a slaughter surveillance investigation, or it is being
                                       conducted for State-designated purposes. However, APHIS’ operating
                                       procedures and memorandum contain high-risk herd provisions which
                                       present a means to administer follow-up testing at questionable locations,
                                       even though a herd was not declared affected. 47 High-risk herds are those
                                       which have had a history of lesions suggestive of TB (but not confirmed),
                                       premises where a TB-affected herd has been depopulated, or herds that
                                       contain exposed animals from known affected herds. 48 Most of the slaughter
                                       surveillance cases fall into the first category because APHIS’ epidemiologic
                                       investigations rarely result in confirming TB (via testing) in a herd of origin.

47
  UM&R Part III.K.1 and VS Memorandum 552.2 Part V.D.6.
48
  VS Memorandum 552.2, Parts V.D.5 and V.D.6 (April 1, 2005) states that all possible sources are to be tested until the infected herd is located. If the
herd of origin or infected herd is not found, all consignors to the affected slaughter lot are to be added to the high-risk herd list.
USDA/OIG-A/50601-0009-Ch                                                                                                                           Page 28
                             Generally, high-risk herds must be monitored and have two subsequent
                             annual herd tests.

                             We determined that APHIS was not monitoring high-risk herds and the
                             corresponding on-farm tests that are required. APHIS’ annual report includes
                             a section for States to report testing and activities for high-risk herds. We
                             reviewed 9 States’ annual reports, which covered 33 of the 36 FY 2004
                             slaughter cases, and did not find any herds (or potential herds) of origin
                             reported as high-risk herds. For example, we observed that Texas identified
                             22 positive TB cases during slaughter surveillance, but did not report any of
                             these cases as high-risk on their annual report. APHIS’ instructions state that
                             when the herd of origin or infected herd is not found, they should add all
                             consignors to the affected lot to the high-risk herd list. 49 As a result, APHIS
                             did not ensure that the required two subsequent annual herd tests were
                             performed. An APHIS official agreed that they were not using high-risk herd
                             provisions as much as they should.

                          We concluded that APHIS’ efforts to trace the source of TB cases to their source
                          were typically neither effective nor timely. We also determined that the high-
                          risk herd testing could be a viable means of performing additional testing for
                          questionable locations, but it is not being consistently used in this manner. Also,
                          the policy to “trace and test all possible sources” needs to be evaluated against
                          what is executed in the field and a determination made to either adjust the policy
                          or adjust how it is executed during investigations.

                          We also recognize that APHIS has taken some steps to improve its
                          investigations, but it must commit the necessary resources and conduct training
                          to support the implementation of the new requirements, and assess the
                          effectiveness of these measures. In addition, an APHIS official indicated that an
                          existing vacant position will be filled by a national epidemiologist, who can
                          assist and review investigative activities as well as high-risk herd management.

Recommendation 10

                          Initiate reviews of regional and area office activities relating to epidemiological
                          investigations to identify to what extent high-risk herd monitoring and testing
                          provisions are being utilized, and implement actions to ensure the consistent use
                          of this tool to eradicate the disease; and determine whether exceptions are
                          warranted to the VS Memorandum policy to “trace and test all possible herds.”

                          Agency Response

                          The response stated that APHIS will implement actions to ensure the consistent
                          use of high-risk herd monitoring and testing. In addition, APHIS officials will

49
     UM&R Part III.K.1.
USDA/OIG-A/50601-0009-Ch                                                                               Page 29
                 re-evaluate their policy regarding tracing and testing of all possible sources and
                 either adjust the policy or adjust how it is executed during investigations. This
                 will be completed by April 2007.

                 OIG Position

                 We accept APHIS’ management decision.

Recommendation 11

                 Assess whether the new rules which were aimed at improving the
                 epidemiological investigations have been implemented and adhered to on a
                 consistent basis. Identify additional areas for improvement, best practices, and
                 any related resource needs. Based on these assessments, develop an action plan
                 or plans in terms of training, guidance or providing additional resources in order
                 to address weaknesses, or to further enhance the program.

                 Agency Response

                 In the response, APHIS officials stated that they updated the TB strategic plan
                 and identified ways to improve investigations through increasing key positions
                 that would have responsibility for closely monitoring epidemiological
                 investigations, and identifying the training and resources needed to accomplish
                 these tasks. They have requested additional funding based on the strategic plan,
                 and subsequent action plans will be developed based on the funding received.
                 These plans will be finalized and initial phases (except for hiring any new
                 personnel) will be implemented by April 2007.

                 OIG Position

                 We accept APHIS’ management decision.




USDA/OIG-A/50601-0009-Ch                                                                     Page 30
Scope and Methodology
                                  We performed our audit fieldwork from April 2005 through November 2005 at
                                  APHIS’ national office in Riverdale, Maryland; FSIS’ national office in
                                  Washington, D.C.; and APHIS’ eastern and western regional offices. We also
                                  interviewed officials and evaluated information from six APHIS area offices.
                                  The audit covered FYs 2001 through 2005.

                                  We initiated this audit because of concerns raised during our audit of the BTEP
                                  in Michigan. In that audit, we reported that APHIS’ status classification system
                                  did not incorporate known cases of TB in Michigan’s wildlife which were
                                  directly linked to outbreaks in cattle, and that APHIS needed to enhance its
                                  controls over the accountability and testing of animals within Michigan’s
                                  infected zone. 50

                                  At APHIS’ national office, we reviewed the FY 2004 annual reports and the
                                  monthly reports for October 2003 through January 2005 for all four TB-affected
                                  States (as of April 2005) along with a judgmental sample of five TB-free States.
                                  The TB-free States (Kentucky, Tennessee, Wisconsin, Minnesota, and Kansas)
                                  were selected based on having both large cattle populations and low slaughter
                                  lesion submission rates. We also obtained TB case data through October 2005 to
                                  update our 2004 results and to perform some limited analysis on FY 2005 cases.

                                  We selected the western region for review because three of the four TB-affected
                                  States (California, Texas and New Mexico) were in the region, and we had
                                  completed an audit of the fourth TB-affected State (Michigan) in 2005. Also,
                                  over 95 percent of the indemnity payments (over $32 million) were disbursed to
                                  western region States from FY 2001 to 2004.

                                  At APHIS’ western regional office, we analyzed all available station (five) and
                                  BTEP review (three) reports that were completed from August 1999 to
                                  March 2005. We also examined final closing reports for all 36 epidemiologic
                                  investigations of TB-infected cattle identified at slaughter in FY 2004.

                                  To accomplish our audit objectives we:

                                       •    Interviewed responsible program officials from APHIS’ and FSIS
                                            national offices, APHIS’ western region, and area veterinarians-in-
                                            charge from Texas, California, Kansas, and Iowa;

                                       •    Reviewed APHIS’ and FSIS’ rules, regulations, policies, procedures as
                                            well as correspondence between the two agencies related to the BTEP;


50
     National Cooperative State-Federal Bovine Tuberculosis Eradication Program in Michigan, Audit Report No. 33099-0005-Ch, (April 2005).
USDA/OIG-A/50601-0009-Ch                                                                                                                     Page 31
                    •   Examined BTEP studies, evaluations, and reviews conducted since
                        FY 1999 in order to assess implementation of recommendations for
                        noted program deficiencies, and whether reviews assessed States’
                        infrastructure;

                    •   Analyzed APHIS’ reports of TB slaughter surveillance submissions for
                        FY 2001 through September 30, 2005, including data from the largest
                        40 cattle slaughter facilities in the United States, in order to determine
                        whether each facility met the established standard of 1 lesion submission
                        per 2,000 head of adult cattle slaughtered;

                    •   Reviewed APHIS’ annual reports (VS Form 6-38) for FYs 2003 and
                        2004, and monthly reports (VS Form 6-2) from October 2003 through
                        January 2005, in order to assess timeliness in submission, managerial
                        review of reports, and the effectiveness of reported program activities as
                        related to established standards;

                    •   Examined slaughter surveillance tracking logs, slaughter surveillance
                        investigation closing reports (VS Form 6-35B) and supporting
                        documentation in order to assess the timeliness and effectiveness of
                        epidemiologic investigations of TB-infected cattle;

                    •   Reviewed APHIS’ import tracking system’s report of animals imported
                        from Mexico from FYs 2001 through 2005 in order to determine the
                        quantity of cattle imported from Mexico; and

                    •   Verified the accuracy of APHIS’ reporting on Veterinary Services’
                        performance measures.

                 The audit was conducted in accordance with Generally Accepted Government
                 Auditing Standards.




USDA/OIG-A/50601-0009-Ch                                                                    Page 32
Exhibit A – All Herds Declared “Affected” With TB
                                                                                  Exhibit A – Page 1 of 1


                     Bovine TB Affected Cattle Herds Declared
                  From Slaughter Surveillance or On-Farm Testing
                            FY 2001 through FY 2005




      NOTE

      This map reflects “affected herds” declared by APHIS that were originally identified by a
      slaughter surveillance investigation or other means, such as on-farm testing performed
      independent of APHIS’ slaughter surveillance investigations. In FY 2006, APHIS declared two
      additional affected herds in Minnesota bringing the total affected herd count for the Minnesota
      outbreak to five.




USDA/OIG-A/50601-0009-Ch                                                                        Page 33
Exhibit B – TB Cases Identified By Slaughter Surveillance
                                                                                    Exhibit B – Page 1 of 1

              TB Cases Initiated As A Result of Slaughter Surveillance
                             FY 2001 through FY 2005




      NOTE

      Slaughter surveillance identified 272 infected cattle from FYs 2001 to 2005. However, because
      the investigations determined that some of these cattle crossed State lines; additional cases were
      opened in other States, such that some individual cattle are represented more than once. This
      map reflects 320 TB cases that were opened in 22 States.




USDA/OIG-A/50601-0009-Ch                                                                          Page 34
Exhibit C – TB Slaughter Cases Traced to Mexican Origin
                                                                                     Exhibit C – Page 1 of 1


         Number of TB Slaughter Cases Traced to Mexican Origin Cattle
                          FY 2001 through FY 2005




      NOTE

      This map reflects 226 TB cases in 12 States. These cases were the result of 205 TB-infected
      cattle found by slaughter surveillance. Some of the 205 infected cattle existed in multiple States,
      which gives rise to the difference between infected cattle found at slaughter and the number of
      cases opened in each State.




USDA/OIG-A/50601-0009-Ch                                                                           Page 35
Exhibit D – USDA Status Classification of Mexican States and Zones
                                                                                Exhibit D – Page 1 of 1




                 USDA CLASSIFICATION - MEXICAN STATES




                    Status



              MODIFIED ACCREDITED ADVANCED

              MODIFIED ACCREDITED

              ACCREDITATION PREPARATORY

              NOT ACCREDITED                                 Sept. 2005




     NOTE

     There were no accredited-free States or zones in Mexico as of September 2005.




USDA/OIG-A/50601-0009-Ch                                                                      Page 36
Exhibit E – Elapsed Days for FY 2004 Investigations of TB-Infected Cattle
                                                                                                       Exhibit E – Page 1 of 1


                                                          Days Elapsed in APHIS' Traceback of
                                                              FY 2004 TB-Infected Cattle


                                            720

                                            630
                   Number of Days Elapsed

                                            540

                                            450

                                            360

                                            270

                                            180

                                             90

                                              0
                                                  1   6    11     16      21        26     31     36
                                                                Number of Cases



                                                      = Timely Closed             = Untimely Closed




USDA/OIG-A/50601-0009-Ch                                                                                             Page 37
Exhibit F – Reasons for Closing FY 2004 Investigations as Untraceable
                                                                                                     Exhibit F – Page 1 of 1




                              Reasons Why 16 of the FY 2004 Investigations
                             Were Closed With an Outcome of “Untraceable”

                             IDENTIFICATION                    RECORDKEEPING                 TESTING
                                                             Owner Did Not      Dealer
                                                                Maintain      Records Not
                           No Tags                              Records        Retained      Commingled
                         on Animals    Tags        Feedlot    (Because Not   Beyond 2-Year     Herds
                          (Tags Not     Not       Removed       Required       Retention      Were Not
           Case Number    Required)   Collected     Tags       To Do So)        Period         Tested
             331700          X                                    X
             294065          X
             310389          X
             330945          X
             335534                      X                                                      X
             294866                      X
             312796                                  X
             316874                                  X
             315182                                  X
             288738                                                               X
             335940          X
             298019          X                                    X                              X
             317711                                  X
             317712                                  X
             312080          X                                                                   X
             293599                                               X




USDA/OIG-A/50601-0009-Ch                                                                                           Page 38
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 1 of 6




USDA/OIG-A/50601-0009-Ch                                          Page 39
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 2 of 6




USDA/OIG-A/50601-0009-Ch                                          Page 40
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 3 of 6




USDA/OIG-A/50601-0009-Ch                                          Page 41
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 4 of 6




USDA/OIG-A/50601-0009-Ch                                          Page 42
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 5 of 6




USDA/OIG-A/50601-0009-Ch                                          Page 43
Exhibit G – Agency Response to the Draft Report
                                                  Exhibit G – Page 6 of 6




USDA/OIG-A/50601-0009-Ch                                          Page 44
Informational copies of this report have been distributed to:

Administrator, APHIS                                             (9)
       Attn: Agency Liaison Officer
Administrator, FSIS                                             (20)
       Attn: Agency Liaison Officer
Government Accountability Office                                 (1)
Office of Management and Budget                                  (1)
Office of the Chief Financial Officer
       Director, Planning and Accountability Division            (1)
